                                  Office of Inspector General
                              U.S. Department of the Interior




                            Semiannual Report
                               to the Congress



Message From the
Inspector General

OI G I n it i a t i v e s

Sig n i f i c a n t
Na r r a t i v e
Su m m a r i e s

                                         October 2007




April 2008
Grand Canyon of the Yellowstone, 1872, paint-
ed by Thomas Moran, memoralizes the 1871
Hayden expedition to the West. The 34-year
old Moran captured on canvas a region still
stewarded by the Department of the Interior.
                 	   Contents		         	      	                 April 2008

Staff            	   Message From the 	
                 	   Inspector General	 	            	           	     iii
                 	
Editorial

Katie Balestra
                 	   OIG Initiatives		         	     	           	      1
Donald Cairns    	
Scott Culver
Sally Dadjou     	   Significant Narrative Summaries	    5
Joann Gauzza
Roy Kime
Mary Maruca      	   Department of the Interior	 	   	           	     5
Gary Mitchell    	   Bureau of Indian Affairs	   	   	           	   11
                 	   Office of Insular Affairs	  	   	           	   17
                 	   Minerals Management Service	    	           	   21
                 	   National Park Service	      	   	           	   25
Fresco
                 	   U.S. Geological Survey	     	   	           	   29
Photography

Thomas Moyle     	   Appendices	 	             	     	           	    31

Production

Mary Maruca


Visit us at:
www.doioig.gov




                                                                              
          The U.S. Department of the Interior (DOI) is a large, decentralized agency with more than
      67,000 employees and 236,000 volunteers located at approximately 2,400 operating locations across the
      United States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500 million
      acres of America’s public land, or about one-fifth of the land in the United States, and 56 million acres of In-
      dian Trust lands. DOI also has responsibility for a variety of water and underwater resources, including 479
      dams and 348 reservoirs and approximately 8,526 active oil and gas leases on 44 million acres of the Outer
      Continental Shelf. Approximately 30 percent of the nation’s energy production comes from projects on DOI-
      managed lands and offshore areas. DOI scientists conduct a wide range of research on biology, geology, and
      water to provide land and resource managers with critical information for sound decisionmaking. DOI lands
      also provide outstanding recreational and cultural opportunities to numerous visitors worldwide.

          The OIG promotes excellence, integrity, and accountability in these programs. With less than 300
      employees, the organization is driven by a keen sense of mission and dedicated to providing products and
      services that impact mission results.

          A range of murals dating back to the New Deal era of the 1930s remind visitors to DOI of the
      diversity the Department oversees. Some of those murals are reproduced here to celebrate the
      resource commitment of DOI employees in general and of OIG employees specifically.




     Commissioned in 1928 by the
     Bureau of Reclamation to illus-
     trate its work in the West, Frank
     Mackenzie depicted the fledgling
     Phoenix, Arizona, after creation
     of the Roosevelt Dam encouraged
     agriculture and city building.




ii
                                                                                                              NT OF TH
                                                                                                   ME                 E
                                                                                                 RT                       I




                                                                                             A




                                                                                                                          N
                                                                                           EP




                                                                                                                              TE
                                                                                     U.S. D




                                                                                                                                RIO
                                                                                                                                 R
Message From the Inspector General
                                                                                     �                                           �




                                                                                                                                AL
                                                                                      OF
                                                                                           Ag
                                                                                             en




                                                                                                                              ER
                                                                                        FI
                                                                                                 of




                                                                                               ts
                                                                                            E       P   osi




                                                                                           C
                                                                                                           tive




                                                                                                                          N
                                                                                                 OF             Ch
                                                                                                                   GE
                                                                                                            ange
                                                                                                         INSP
                                                                                                             ECTOR




          I am pleased to present the accomplishments of the Office of Inspector General (OIG) from
      October 1, 2007, through March 31, 2008. In this Semiannual Report to the Congress, we have
      taken a new approach to highlighting our results and accomplishments. We have streamlined our
      publication to focus on our most significant work as well as trends affecting the entire agency.

          We have also included a section on OIG initiatives in this Semiannual Report to show new
      products and services we are offering as well as how we have restructured operations to be more
      effective in producing positive results.

          One of our initiatives has been creating a mineral royalties oversight unit. Over the last 2
      years, we have been significantly involved in work with the Minerals Management Service oil
      and gas royalty program. We felt it was imperative that we create a unit of experts in this area to
      continue this important work, which has assisted in recovering millions of dollars in oil and gas
      royalties over the years.

          The OIG Office of Investigations has also created an Acquisition Integrity Unit to supplement
      and support OIG contract and grant oversight efforts, combining the skills of auditors and investi-
      gators and using a team approach to combat fraud.

          We also established an Office of Inspections and Evaluations to perform work that often in-
      volves answering specific questions by the Congress and the Department, as opposed to the broader
      audits that examine programs and operations.

          Another initiative we highlight in this Semiannual Report is our use of Critical Point Evalu-
      ations, a new product/service that allows teams to perform limited-scope evaluations for major
      projects or initiatives, such as the acquisition of a new financial system. We are using Critical
      Point Evaluations as project milestones to identify problems and resolve concerns during each step
      of our work.

          We will continue to explore new products and services that allow us to facilitate positive
      changes in the Department and ultimately create more streamlined operations and save taxpayer
      money. We hope the results and accomplishments we have highlighted in this Semiannual Report
      show our commitment to not only detecting fraud, waste, and abuse but effecting positive change.




                                            Earl E. Devaney	
                                            Inspector General

                                                                            Back to Toc                                               iii
     Mission
        The mission of the OIG is to promote excellence, integrity, and ac-
     countability in the programs, operations, and management of DOI.


     Responsibilities
         The OIG is responsible for independently and objectively identifying
     risks and vulnerabilities that directly impact, or could impact, DOI’s ability
     to accomplish its mission. We are required to keep the Secretary and the
     Congress fully and currently informed about problems and deficiencies
     relating to the administration of DOI programs and operations. Effective
     implementation of this mandate addresses the public’s demand for greater
     accountability and integrity in the administration of government programs
     and operations and addresses the demand for programs that work better,
     cost less, and get the results Americans care about most.


     Activities
          The OIG accomplishes its mission by conducting audits, inspections,
     evaluations, assessments, and investigations relating to the programs and
     operations of DOI. Our activities are tied directly to DOI’s major responsi-
     bilities and are designed to assist DOI in developing solutions for its most
     serious management and program challenges, most notably cross-cutting or
     DOI-wide issues. These activities are also designed to ensure that we keep
     critical issues prominent, which greatly influences key decisionmakers and
     increases the likelihood that we will achieve desired outcomes and results
     that benefit the public.


     DOI Management Challenges
         OIG programs help to meet DOI’s Management Challenges: Financial
     Management; Information Technology; Health, Safety, and Emergency
     Management; Maintenance of Facilities; Responsibility to Indians and In-
     sular Areas; Resource Protection and Restoration; Revenue Collections; and
     Procurement, Contracts, and Grants.




iv
Marking the 150th anniversary
of DOI, this is one of a pair of
murals by Daniel Galvez, com-
pleted in 1999 and titled Stewards
of the Future.




                                     
           Office of Inspector General




Portion of a mural by John
Seuart Curry, illustrating
the pioneer dream of 	
productive farmland.
OIG Initiatives
    In response to some specifically identified programmatic concerns
and the ever-emerging need to provide new and innovative services, the
OIG has initiated three new organizational units and a new product-line
to address these programmatic concerns and meet the need for new and
innovative services.

MMS Royalties Unit
    Over the past 2 years, the OIG has been profoundly involved in nu-
merous Minerals Management Service (MMS) royalty issues. Given the
amount of work we have been doing in the royalties arena, it might be
reasonable to conclude that we drew on a corps of subject-matter experts
familiar with the intricacies and nuances of royalty management. Rather,
we grew our so-called “experts” from scratch and on the run. We recog-
nized almost immediately that the OIG would need to develop a royalties
oversight unit and build an expertise for the long term.

     In December, the Congress passed the Omnibus Spending Bill for
Fiscal Year 2008. Accompanying the bill was report language that
instructed the OIG to develop a permanent capability to oversee MMS’
royalty function. The OIG is in the process of doing just that.

    In the near term, we are standing up a modest Denver-based Royalty
Oversight Office, consisting of six employees, four of which have al-
ready been filled by current OIG staff, including the position of Director.
The remaining two positions are expected to be recruited and on-board
by May 2008.

     The members of this small office must first develop an understanding
of royalties-related activities in MMS; we are also identifying training
opportunities to cultivate their expertise, including observation and par-
ticipation in royalty audits conducted by states and tribes.

    This group will soon complete the ongoing evaluation of MMS’
Royalty-in-Kind (RIK) sales program for oil and will then undertake an
audit of MMS’ processes for verifying volumes delivered as RIK, includ-
ing, most importantly, oil destined for the Strategic Petroleum Reserve.
Eventually, this unit would also verify that the recommendations we
have made, and those issued by the Royalty Policy Committee, have
been appropriately implemented.

    In the longer term, we intend to develop the capacity to oversee all
minerals-related activities managed by DOI from initial leasing of feder-
al and Indian lands to the final termination of those leases, which would



                                                                                       
                                                                         Back to Toc
    include the management of those leases and the collection of royalty
    payments. Ultimately, we would like to expand our oversight coverage
    beyond MMS to the energy and minerals programs at the Bureau of Land
    Management and Bureau of Indian Affairs (BIA), including oil, gas, and
    solid minerals.

    Acquisition Integrity Unit
        DOI awards approximately $4.5 billion in contracts and over $2 bil-
    lion in grants annually. To further enhance effective and efficient audits,
    evaluations, and investigations related to fraud and other irregularities in
    DOI’s procurement and financial assistance programs, the OIG has es-
    tablished the Acquisition Integrity Unit (AIU) to supplement and support
    OIG contract and grant oversight efforts. AIU is a hybrid organization
    combining auditors, investigators, criminal research specialists, and pro-
    gram analysts to provide a level of procurement and financial expertise
    previously unavailable in-house. In addition, the AIU conducts indepen-
    dent analyses of, and provides recommendations for, the improvement of
    DOI procurement and financial assistance programs and processes.

    Inspections and Evaluations
         In the OIG community, inspections and evaluations units have existed
    for some time. In this OIG, we have not had a dedicated inspections and
    evaluations unit, although we have routinely conducted the equivalent
    of inspections and evaluations for years. In January 2008, the Inspector
    General announced the creation of the Office of Inspections and Evalua-
    tions; the unit is now up and running.

         Inspections are independent, objective reviews of various program
    elements (such as documents, facilities, records, and any other assets) to
    determine if a program is complying with specific regulations or criteria.
    Inspections have limited depth and breadth, relate to a single issue, are
    designed to answer a specific question, and would generally not contain
    recommendations. In some cases, an inspection may be used to respond
    to a congressional request for information or may answer some specific
    question not directly tied to criteria.

        Evaluations are objective, independent studies and appraisals of a
    program’s systems, records, and processes. The goal of an evaluation is
    to determine the significance, value, and/or current operating condition of
    program elements and determine whether opportunities exist for improve-
    ments in program operation or effectiveness.





    Evaluations may focus on such issues as program vulnerabilities; pro-
gram effectiveness; “best practices”; the adequacy and appropriateness of
program policies; the efficiency of resource use; or fraud, waste, and abuse.
Evaluations include developing only an understanding of the internal control
environment as it relates to the functioning of the program elements under
review.

     No actions are undertaken to specifically detect or identify fraud or
illegal acts. Evaluations, which provide timely reporting on programmatic
results while conserving staff resources, have scopes of either depth or
breath, but not both; address a single program or operation of a single or
multiple bureaus; and accept a greater, but acceptable, risk that errors in our
findings, conclusions, recommendations, or suggestions might occur. The
report or other product presented to Interior management officials may con-
tain recommendations or suggestions on how to improve management of the
program, activity, or organizational unit under review.

Critical Point Evaluations
    Critical Point Evaluations (CPEs) are a new product/service being of-
fered by the OIG. CPEs are limited scope evaluations of planned or ongo-
ing major projects or initiatives, such as the acquisition of a new financial
system, a large construction project, or a new cross-cutting initiative.

    Initially, CPEs typically had been conducted at the beginning of a
project, before major funding had been expended, to ensure that adequate
management controls and oversight have been incorporated in the project.
Subsequently, CPEs may be iterative components of a project, occurring at
identified major milestones.

    CPEs are designed to identify and resolve issues or concerns early, at the
lowest level, and least cost, to prevent waste and costly mistakes, identify
best practices relevant to the project or initiative, and enhance coordina-
tion among affected DOI entities.  

     For projects with multiple CPEs, a compilation report may be prepared
at the conclusion, primarily to record and memorialize lessons learned to aid
the OIG and DOI in future projects.




                                                                                  
       Department of the Interior




    Panel from a larger work 	
    titled Construction of a
    Dam by William Gropper,
    1939, depicts DOI’s 	
    construction activities.



Official Held Liable After Accepting 	
Proceeds From Oil Litigation
     In a verdict following a civil trial in the U.S. District Court for the
District of Columbia, a jury found Robert A. Berman, an economist with
the Office of Policy Analysis, Assistant Secretary, Policy, Management
and Budget, Washington, D.C., guilty for receiving an unlawful contri-
bution to or supplementation of salary from the Project on Government
Oversight (POGO), a government watchdog group. The trial occurred
as a result of a July 2006 ruling by the U.S. Court of Appeals for the
District of Columbia Circuit to reverse a prior decision by the U.S.
District Court granting summary judgement for the government. In its
decision, the Appeals Court had ruled that a genuine issue of material
fact existed with respect to Berman being compensated for his services
as a federal employee.

     On November 2, 1998, POGO Executive Director Danielle Brian
Stockton made a $383,600 payment to Berman from proceeds that
POGO had received as a qui tam relator in a civil False Claims Act
settlement between the federal government and Mobil Oil Corpora-
tion (Mobil) in August 1998. In the settlement, Mobil paid $45 million
to resolve allegations that it undervalued oil produced and sold from
federal and Indian leases between January 1, 1980, and December 31,
1997. The payment to Berman was based on an undisclosed agreement
that Berman had entered into with POGO in January 1998 to equally
share the proceeds of any settlements resulting from the litigation.

     During the trial, Berman testified that he neither informed anyone at
DOI before he received the payment from POGO nor did he contact the
ethics officer before he deposited the payment. Berman confirmed
that the payment was for his decade-long work to expose and stop the
underpayment of royalties from crude oil production. The payment
from POGO also recognized his efforts to bring the undervaluation issue
to the attention of DOI officials.

     During the qui tam litigation, the Department of Justice (DOJ)
settled with 18 U.S. oil companies for a total of approximately $430
million. The settlement resolved allegations that the companies had un-
dervalued oil for royalty purposes. The oil had been produced and sold
from federal and Indian leases nationwide.




                                                                                         
                                                                           Back to Toc
    Health and Safety Is An 	
    Issue at DOI Facilities
         We conducted an audit to determine whether DOI and its bureaus
    were effectively addressing health and safety issues associated with
    infrastructure. We found that, although progress had been made,
    much work remained to be done. For example, DOI does not know
    if all health and safety issues have been identified because condition
    assessments and safety inspections of facilities have not been com-
    pleted. Many health and safety hazards place employees and the pub-
    lic at risk. In addition, we found numerous weaknesses in the health
    and safety program managed at the DOI headquarters and individual
    field office level. DOI generally concurred with the recommendations
    provided in our report and included an action plan that should help
    alleviate the situation.

        We also issued three separate flash reports during this audit to
    quickly address the most serious health and safety hazards. These
    consisted of the following:

    u Severe deterioration exists at Bureau of Indian Education’s
      elementary and secondary schools. This deterioration ranged
      from minor deficiencies such as leaking roofs to major deficien-
      cies like structural weaknesses, outdated electrical systems, and
      inadequate fire detection and suppression systems.

    u For at least 20 years, the National Park Service (NPS) has not
      performed critical maintenance on its aging Wawona Tunnel
      located in Yosemite National Park. We concluded that the hazard-
      ous conditions in the tunnel endangered lives.

    u At the Jackson National Fish Hatchery in Wyoming, U.S. Fish
      and Wildlife Service (FWS) and U.S. Geological Survey (USGS)
      employees worked for almost 7 years in two buildings that were
      previously condemned and closed to the public.

        After receiving each report, the Secretary of the Interior acted
    quickly to direct appropriate officials to address the problems.

        We also conducted a Department-wide survey to determine em-
    ployee perceptions of health and safety. Most respondents felt that
    they worked in a safe and healthy environment, but thousands of
    written comments also revealed serious, uncorrected problems.





Culture of Expediency Curtails 	
Competition in Contracting
      A culture within DOI values expediency in contracting over and
above protecting both the best interest of the public and the accountabil-
ity, integrity, and transparency necessary to DOI acquisition
practices. Although federal procurement policy envisions a very
limited use of sole source contracting, DOI’s preference toward sole
source contracting circumvents competition and raises questions as to
whether procurement dollars are being used appropriately.

    We noted examples in which material modifications to competed
contracts were, in effect, de-facto sole source contracts; written justifica-
tions for sole source contracts were inadequate or nonexistent; fair value
pricing for sole source awards was not established; and small businesses
were not given opportunities to compete.

    This urgent need for competition, accountability, and transparency
was also stressed in our first two reports: (1) Framework Needed to
Promote Accountability in Interior’s Grants Management, issued
August 2005, and (2) Proper Use of Cooperative Agreements Could
Improve Interior’s Initiatives for Collaborative Partnerships, issued
January 2007.

     Collectively, our three reports represent a holistic review of acquisi-
tion practices within DOI. They provide recommendations to signifi-
cantly improve these practices and move DOI toward a sound, business-
like approach for acquiring goods and services.

    We made three recommendations in this report to help restore
competition to its proper place in the acquisition process and to
ensure that DOI and the public receive the best value for goods
and services purchased.


DOI and DOD Interagency 	
Contracting Audited
    For a number of years, the Government Accountability Office has
identified interagency contracting as a high-risk area. Because the Na-
tional Defense Authorization Act (NDAA) of fiscal year 2006 required
the Department of Defense (DOD) OIG to work with the DOI OIG to re-
view such contracting, we assessed the fiscal year 2005 purchases made




                                                                                
    by DOI’s two acquisition centers, the Herndon, VA, Branch (formally
    GovWorks) and the Southwest Branch (SWB) of the Acquisition Ser-
    vices Directorate. Based on our findings, the NDAA required a second
    audit be conducted.

         The objective of this second audit was to determine whether the
    purchases that SWB and GovWorks made on behalf of DOD con-
    formed to applicable laws and regulations. We examined the specific-
    ity of DOD procurement requests, compliance with DOD procurement
    requirements on the part of DOI, and use and tracking of DOD funds.

        Overall, we found that SWB has made significant improvements
    since our first audit. However, GovWorks did not comply in full with
    legal requirements, the Federal Acquisition Regulations, or DOD
    supplemental policies. In fact, GovWorks continues to violate rules
    designed to protect federal interests. Its improper use of funds puts
    DOI at risk for acquisition center loss of business and loss of public
    confidence and trust.


    Inadequate Controls Undermine 	
    Transit Benefit Program
         The transit benefit program assists commuters with transportation
    funds. It is a popular DOI program. However, during our evaluation
    of this program, we found several weaknesses in DOI’s oversight.
    These weaknesses leave it vulnerable to fraud, abuse, and monetary
    losses. We conducted our evaluation in response to a request from the
    Washington Metropolitan Area Transit Authority’s Inspector General.
    We found that:

    u	 DOI has not implemented strong enough controls to identify and
       remove from the program individuals who have left any of its
       bureaus. As many as 162 participants may have continued to re-
       ceive benefits after leaving DOI in fiscal year 2007, and more than
       half of the program participants who left could have continued to
       receive benefits.

    u	 It is highly likely that DOI is making payments in excess of actual
       commuting costs. Of the 80 employees in our sample, 34 had a
       relatively high risk of collecting more than they were entitled to.
       Furthermore, only 162 out of the 4,871 participants in fiscal year
       2007 adjusted downward the amount of transit benefits they re-
       ceived. We would have expected a higher number of employees to
       make adjustments due to leave, holidays, and other situations that
       change the number of days each month they use public transporta-
       tion to travel to work.



u	 The transit benefit applications for more than 60 percent of the em-
   ployees in our sample were missing, incomplete, or inaccurate.

u	 The lack of electronic searchable parking records inhibits the
   ability of transit subsidy program coordinators to ensure program
   participants do not also receive parking privileges.

    The problems identified above stem from lack of adequate oversight
at multiple levels within DOI and its bureaus, as well as inadequate com-
munication with the Department of Transportation, which administers the
acquisition and distribution of transit benefits for DOI employees.


Opinion on Trust Fund 	
Finances Remains Qualified
    Although we recognize that the Office of the Special Trustee for
American Indians (OST) has made substantial progress in addressing
internal control weaknesses during fiscal year 2007, the independent,
certified public accounting firm of KPMG LLP (KPMG), under contract
with OST, issued qualified opinions on the fiscal years 2006 and 2007
Tribal and Other Trust Funds and on Individual Indian Monies Trust
Funds financial statements prepared by OST.

     According to KPMG’s report, it was not practicable for the auditors
to extend their auditing procedures to determine the fairness of trust fund
balances. This was due to certain parties for whom OST holds assets in
trust disagreeing with balances recorded by OST. Certain of these parties
also may have requested an accounting of their trust funds, claims filed
or expected to be filed against the U.S. government, and inadequacies in
certain DOI trust-related systems and processes. The report also identi-
fied a material weakness related to unresolved financial reporting issues
from prior periods and a significant deficiency caused by OST’s reliance
on processing trust transactions at BIA.




                                                                              
                    Bureau of Indian Affairs




     Commissioned by Secretary
     Ickes in 1939, this mural by
     Velino Herrers of Zia Pueblo
     celebrated many of the
     traditional lifeways that had
     disappeared in the early
     20th century.

10
School Officials Sentenced for Major Theft
    In November 2007, seven school board members and employees
of Twin Buttes School, Three Affiliated Tribes, Fort Berthold
Reservation, ND, were sentenced in U.S. District Court, District of
North Dakota, for their involvement in the theft of approximately
$665,000 in federal funds.

     As we reported in our April 2007 Semiannual Report, the defendants
were charged in October 2006 with various counts of fraud
and misapplication of federal funds, embezzlement from an Indian
tribal organization, wire fraud, and conspiracy. They took the funds
through fraudulent travel advances, cash transactions, wire transfers
and checks, debit withdrawals, stipends, and travel reimbursements.
Each defendant named below pled guilty to 1 count of theft from an
Indian tribal organization.

     Melissa Starr, former school board president, was sentenced to 18
months of imprisonment, 36 months of supervised release, and payment
of $309,246 in restitution. Tammy Grady, former school board member,
was sentenced to 7 months of imprisonment, followed by 7 months of
home confinement, 36 months of supervised release, and payment of
$92,000 in restitution. Elaine Incognito, former school principal, was
sentenced to 5 months of imprisonment, followed by 5 months of home
confinement, 36 months of supervised release, and payment of $58,000
in restitution. Hank Starr, former school board member, was sentenced
to 36 months of probation and payment of $29,500 in restitution. Darwin
Lone Bear, former school board member, was sentenced to 36 months of
probation and payment of $23,498 in restitution. Lillian Holen, former
school financial officer, was sentenced to 6 months of home confinement,
followed by 36 months of probation and payment of $30,000 in restitu-
tion. Paul Fredericks, former school custodian, was sentenced to 36
months of probation and payment of $40,068 in restitution.


Contractors Charged in Bribery 	
and Kickback Schemes
    In October 2007, Richard Dean Baysinger, former Transitional
Director for Special Education, Crow Creek Tribal Schools (CCTS),
Crow Creek Indian Reservation, SD, was indicted by a federal grand jury
on 1 count of mail fraud and 6 counts of money laundering.
Ed Patzer, a flooring contractor from Pierre, SD, was indicted by
the same federal grand jury on 12 counts of bribery.




                                                                                         11
                                                                           Back to Toc
          In March 2008, Baysinger pled guilty to money laundering and
     agreed to cooperate with the investigation. Shortly after he agreed to
     plead guilty, Royal Edwin “Shorty” Kutz, an excavation contractor
     from Highmore, SD, was indicted by a federal grand jury on 3 counts
     of bribery. The indictment occurred on March 18, 2008. An addi-
     tional indictment involving this case was filed in the same month, but
     that indictment is sealed.

          This investigation initially focused on funds allocated to CCTS
     to finance the construction of new dormitory and kitchen facilities
     to replace facilities destroyed at the school’s main campus in
     April 2005. Our investigation showed that the Office of Facilities
     Management Construction (OFMC), BIA, allocated slightly
     more than $1 million shortly after the fire to help finance the
     construction project.

         Additionally, CCTS received about $3 million in a fire-related
     insurance settlement. Work on the project was completed in 2005,
     but payments continued to be allocated by CCTS to contractors
     in 2006.

         The scope of our investigation eventually expanded to cover
     other construction projects completed at CCTS between 2003 and
     2006. CCTS received millions of dollars in additional federal
     construction money from OFMC for these projects. Our investiga-
     tion established that the person responsible for administering the
     contracts on behalf of the school was Scott Raue, the former CCTS
     superintendent and chief executive officer.

          Baysinger pled guilty to laundering a fraudulent $19,000 pay-
     ment that construction contractor Nystrom Electric (Pierre, SD),
     paid in 2005. Nystrom Electric recovered these funds through bills
     it submitted and that were paid by CCTS. The investigation showed
     that Baysinger ran the proceeds of the payment he received through
     his personal checking account and then paid the money to Raue or
     Raue’s family members. Baysinger admitted to this wrongdoing
     when interviewed by investigators.

          The charges filed against Patzer pertain to payments he received
     from CCTS for work on the dormitory and kitchen construction
     project. Patzer paid tens of thousands of dollars in bribes and kick-
     backs to Raue out of these CCTS funds. Our investigation disclosed
     that Patzer received hundreds of thousands of dollars in overpay-
     ments for the flooring work he completed for the CCTS project.




12
When interviewed by investigators, Patzer admitted he provided check
and cash payments to Raue even though he knew his actions were
wrong. Patzer’s trial is scheduled for May 2008.

    Kutz was indicted for tens of thousands of dollars in bribes and
kickbacks that he also paid Raue between 2003 and 2006 in order to
secure construction work at CCTS. Our investigation disclosed that
during that same time, Kutz obtained about $2.2 million in projects
from CCTS through Raue.

    In addition to the construction monies allocated by OFMC to
CCTS, the Office of Indian Education Programs (OIEP) also provided
CCTS with millions of dollars in federal funds annually to
finance the school’s education programs and operations. As an
example, OIEP allocated more than $8 million for the 2005/2006
school year. Oversight of OFMC and OIEP fund allocation to the
school also is being scrutinized as part of this ongoing investigation
with the FBI. Additional indictments are anticipated.


Office Manager Sentenced 	
for Embezzlement
     Candace Gray was sentenced in U.S. District Court, Southern Dis-
trict of California, by Honorable Roger T. Benitez, U.S. District Judge,
in connection with her guilty plea to 1 count of embezzlement from an
Indian tribal organization, in violation of 18 U.S.C. 1163. Gray was
sentenced to 3 months of imprisonment, 3 months of home confinement
via electronic monitoring device, $36,000 in restitution, and mandatory
participation in the Alcohol and Gambling Anonymous Programs.

     Gray, a former office manager for the Mesa Grande Band of Mis-
sion Indians, pled guilty to misappropriating approximately $40,000 in
tribal funds to support her gambling habit.

     The Mesa Grande Band of Mission Indians is a federally recog-
nized tribe located in Southern California. The tribe received approxi-
mately $358,514 in grant monies from the BIA while Gray was the
office manager.




                                                                           13
     Tribal Officials Found 	
     Guilty Of Embezzling
         In October 2007, Kim Colhoff, a former payroll supervisor
     with the Oglala Sioux Tribe, pled guilty to a 1 count indictment that
     charged her with embezzlement, as well as aiding and abetting charg-
     es. Also, Eileen Janis, a former tribal finance committee coordinator,
     was convicted of both embezzlement and aiding and abetting charges
     by a federal trial jury in the District of South Dakota. In January
     2008, Colhoff was sentenced to 60 of months probation and payment
     of restitution in the amount of $29,156. Janis was sentenced to 60
     months of probation and payment of $22,140 in restitution.

         As we reported in our April 2007 Semiannual Report, the above-
     named defendants along with David Rabbit, the former tribal trea-
     surer, were indicted for their involvement in the theft of funds through
     excessive payroll advances obtained from the tribe but never fully
     repaid. Rabbit pled guilty in June 2007. In August 2007, he was
     sentenced to 5 years of probation and payment of $9,898 in restitution.

         A substantial amount of the funds involved in this case had been
     allocated to the Oglala Sioux Tribe by DOI and other federal agencies.
     These were indirect cost funds to cover payroll for administrative per-
     sonnel. Also, as Oglala Sioux Tribe treasurer, Rabbit was responsible
     for millions of dollars the tribe received annually from DOI and other
     federal sources.


     Former Tribal Governor and 	
     Finance Director Indicted for Fraud
         On March 19, 2008, a federal grand jury in Maine indicted Robert
     L. Newell on 30 counts of conspiracy to defraud the United States,
     misappropriation of tribal and health care funds, making false state-
     ments, and submitting false claims. Newell was the former tribal
     governor of the Passamaquoddy Tribe Indian Township Reservation
     between 2002 and 2006.

          James J. Parisi, Jr., also was charged as a co-conspirator and co-
     defendant in a 21-count indictment covering conspiracy to defraud the
     United States, misappropriating tribal and health care funds, making
     false statements, and submitting false claims. Parisi served as the
     tribe’s finance director from 2003 to 2006.




14
                   During their tenures in positions of tribal authority, both men alleg-
              edly misapplied federal funds awarded to the tribe by the U.S. Department
              of Health and Human Services, DOI, the U.S. Department of Housing and
              Urban Development, DOJ, and the U.S. Environmental Protection Agency.
              The defendants also allegedly diverted funds from the tribal employees’
              retirement fund and misapplied approximately $1.7 million in federal funds
              awarded to benefit tribal programs.


              Single Audit Oversight Leads to Severe 	
              Penalties for Nonfederal Auditor
                   The Single Audit Act Amendments of 1996 require nonfederal entities
              that expend federal awards equal to or greater than $500,000 (in any fiscal
              year) to obtain a single audit for that year. One responsibility of the OIG
              is to conduct quality control reviews of selected audits made by nonfederal
              auditors. The OIG completed a review of the Gun Lake Tribe single audit
              report for the fiscal year that ended September 30, 2003, issued by Nicholas
              Lahr, CPA. Due to the significant deficiencies noted during our review, we
              referred Mr. Lahr to the Michigan Board of Accountancy for substandard
              audit performance. The Board ultimately fined Mr. Lahr $10,000 and
              revoked his license to practice public accounting.




Commissioned by Secretary
Ickes in 1939, this mural by Alan
Houser illustrates the vigor of
daily Apache life.




                                                                                             15
                              Office of Insular Affairs




Gifford Beal’s mural, 	
installed at DOI in 1941,
illustrates the expansive-
ness of DOI’s resource
responsibilities.  Beal was
considered one of the
great American 	
impressionists.
Pohnpei State’s Supplies and Equipment
At-Risk; Accountability Lacking
     Located in the Federated States of Micronesia (FSM), Pohnpei State
is the largest and most populous of the four islands comprising this region.
Supplies and property accountability are critical on an island. Our evalu-
ation identified the absence of an effective property accountability process
to ensure that supplies and property are properly used and protected from
fraud and mismanagement.

     Serious deficiencies existed in accounting for medical and educational
supplies and also for state-owned equipment. Pohnpei’s State Hospital,
for example, failed to manage its drugs properly, particularly drugs identi-
fied as controlled substances under the Controlled Substances Act. Such
drugs have a high potential for abuse.

    Our evaluation found either shortages or overages, ranging from 5 to
4,667 units, for all 14 controlled substances listed in the hospital pharma-
cy’s logbook. We also found excessive quantities of expired controlled
substances, as well as multiple, unorganized drawers of prescription orders
with no system to track receipts, issuances, on-hand balances, or reorders.
Educational supplies also went untracked. Principals at six of the seven
elementary schools in Pohnpei said their schools had not received request-
ed supplies for the previous or current school years. This necessitated
them seeking donations from parents, teachers, and the community, and
ultimately making do with what they had.

     We also confirmed that significant deficiencies in accounting for
state-owned equipment, identified in a 1999 report by Pohnpei’s Public
Auditor’s Office, had not yet been corrected. A September 2006 inven-
tory, conducted at our request, revealed that approximately 45 percent of
property items, valued at about $750,000, could not be found.

     We made recommendations to help Pohnpei State establish an
effective property accountability process, as measured against the best
practices for conducting physical inventories compiled from seven
leading-edge companies in the private sector. The governor concurred
with our recommendations and issued an executive order to begin correct-
ing the deficiencies. The governor’s response to the final report contained
additional information on the actions Pohnpei State has taken or plans
to take. These were sufficient for us to consider all recommendations
resolved and implemented.




                                                                                          17
                                                                            Back to Toc
     Kosrae State Lacks Adequate 	
     Property Accountability
         Kosrae State, also part of FSM, needs to improve its property
     accountability process. We found that supplies and equipment pur-
     chased with health and education grant funds, totaling 65 percent of
     the $6.5 million in financial assistance provided to Kosrae State by
     the Office of Insular Affairs, were not safeguarded or even used for
     authorized purposes.

          For example, the Kosrae State Hospital did not account for, pro-
     tect, or ensure the proper use of medical supplies and pharmaceuti-
     cals, including narcotics identified as controlled substances under the
     Controlled Substances Act because of their high potential for abuse.
     We found significant variances in 3 of the 12 controlled substances
     stocked by the hospital. Similarly, Kosrae’s Department of Educa-
     tion could not confirm that educational supplies, such as textbooks
     and printers, were received and distributed to schools and used for
     educational purposes.

          Equipment and personal property purchased with grant funds
     were likewise inadequately accounted for and not protected from
     unauthorized use, theft, or loss. Although Kosrae enacted financial
     management regulations to improve its recordkeeping, property
     identification, and inventory, it was not following them. The most
     recent inventory was completed in 2003. Our sampling of 223 of
     the 283 items held by the Department of Education in 2006 revealed
     that 125 items, valued at nearly $470,000, could not be found. We
     made recommendations to ensure effective controls over supplies and
     equipment purchased with financial assistance from DOI.


     Circumvention of Tax Law Undermines
     Integrity of Virgin Islands Tax System
         Continuing a decades-long practice of administrative non-
     feasance, the Bureau of Internal Revenue and the Department of
     Finance, the two primary agencies responsible for collecting tax rev-
     enues in the Virgin Islands, ignored their charge to collect delinquent
     taxes and focused instead on accounting for receipts.

          Specifically, the bureau did not assess taxpayers in a timely man-
     ner, meet its collection timelines, identify non-filers, or effectively
     use its collection officers. In fact, collection officers said their efforts
     could be characterized more as “correcting” errors than as
     “collecting” delinquent taxes.


18
                        At the Department of Finance, antiquated recordkeeping practices,
                    combined with minimal collection efforts, allowed property owners to
                    forego paying property taxes without consequence. The result of these
                    practices was a systematic breakdown in the collection of delinquent
                    taxes and a cumulative total of uncollected tax revenues for the past 10
                    years of more than $250 million. Of this amount, $128 million may
                    never be recovered because of the age of the debt.

                         Also contributing to the breakdown in delinquent tax collection
                    were two other issues of grave concern. The first issue involved
                    practices that circumvented legislation enacted to prevent tax evasion
                    by ensuring that business licenses were not issued to applicants with
                    delinquent taxes. However, the Department of Licensing and Consumer
                    Affairs issued business licenses to applicants who did not have clearance
                    letters. Also, the Bureau of Internal Revenue issued clearance letters
                    when delinquent taxes were owed, thereby rendering the tax evasion
                    legislation ineffective.

                         The second issue was the flagrant abuse of position by a former
                    director of the bureau who issued favorable tax clearance letters to
                    taxpayers, falsely stating that they were current in filing and paying their
                    taxes. For example, we found 31 favorable tax clearance letters issued
                    to a businessperson who had evaded filing and paying taxes for 7 years,
                    eventually accumulating a balance of $1.75 million in taxes owed.

                        The governor of the Virgin Islands concurred with our recommenda-
                    tions and took steps to correct deficiencies in the tax collection process to
                    maximize revenues to the government.




Portion of the Beal mural.




                                                                                                    19
     Minerals Management Service




     A fresco by Edgar Britton,
     created originally for the
     Petroleum Division of the
     Bureau of Mines in 1939.


20
Energy Company Agrees To Settlement
     After 4 days of administrative hearings in November 2007,
Citation Oil & Gas Corporation, Houston, TX, a privately held inde-
pendent oil and gas acquisition and production company, executed a
settlement agreement to pay $300,000 to MMS.

     The agreement resolved our investigation into the conduct of the
company and certain respective officers, directors, and employees
regarding altered documents the company submitted during an audit of
royalties the company paid for oil and gas removed from federal leases
in North Dakota. The fraudulent documents hid about $62,000 in roy-
alties that Citation Oil & Gas Corporation failed to pay MMS for oil.

    As we reported in our April 2006 Semiannual Report, a deferred
prosecution agreement, which was executed between Citation Oil &
Gas Corporation and its wholly owned subsidiary, Citation Crude Mar-
keting, Inc., Houston, TX, resolved our criminal investigation into this
same matter.


Former MMS Oceanographer Sentenced
for Traveling to Meet Minor for Sex
     On January 18, 2008, Barry S. Drucker, a former MMS oceanog-
rapher in Herndon, VA, pled guilty in the Northern District of Georgia
to one count of violating 18 USC 2422(b), using a computer attached to
the Internet to entice a minor (defined as under the age of 18) to engage
in sexual activity. This statute carries a minimum sentence of 10 years
incarceration. Drucker received a sentence of 10 years of imprison-
ment, followed by 10 years of supervised release.

    In March 2007, Immigration and Customs Enforcement (ICE) con-
tacted the OIG regarding possible child exploitation by an individual
with access to an MMS computer. ICE advised that someone using
an MMS Internet IP address electronically communicated via e-mail,
video, and chat with a Clayton County, GA, investigator posing as a 13-
year-old female. Subpoena results identified the individual as Barry S.
Drucker, a GS-14 employee with MMS in Herndon, VA.

    OIG agents arrested Drucker in May 2007 at Atlanta Hartsfield-
Jackson International Airport as he got off a flight from Washington,
D.C., to meet the supposed 13-year-old. He was indicted for using the




                                                                                  21
                                                                    Back to Toc
     Internet to entice a minor to engage in prohibited sexual activity and for us-
     ing the Internet to transmit obscene material to a minor. Following his arrest,
     a team of OIG agents executed search warrants for his Virginia residence and
     office cubicle.

          Drucker had arranged to fly to Atlanta, using his government-issued credit
     card to pay for the flight, and to make hotel and rental car reservations. To
     justify the travel, he advised his MMS superiors of his intention to attend an
     oceanography conference, then created a flyer for the conference agenda.




                                                                    Images on pages 24 and 25 taken
                                                                    from the Britton mural.




22
23
                              National Park Service




     Mural by Nicolai Cikovsky,
     installed in 1939, part of a
     series demonstrating the
     influence of water on 	
     desert environments.
24
Former NPS Supervisor Sentenced
     On October 31, 2007, Patricia Buccello, the former National Special
Agent–in–Charge for NPS, pled guilty to 1 misdemeanor count of theft
of public money for fraudulently obtaining money belonging to the NPS.
Buccello admitted that in March 2007 she failed to appear as a represen-
tative of the NPS Director at a ceremony honoring fallen NPS officers in
Jacksonville, FL. She did this in order to obtain a free round trip airline
ticket. However, she claimed that her connecting flight had been can-
celled after being stuck for hours on the tarmac in Charlotte, NC.

    Our investigation revealed that the flight in question departed only
minutes late, and that Buccello had voluntarily given up her seat in return
for a free round trip airline ticket. The investigation also revealed that in
July 2006, Buccello failed to travel to St. Louis, MO, to deliver a fatality
report to the widow of a fallen NPS special agent.

    Further investigation revealed that between April 2005 and March
2007, Buccello charged the government all or a portion of the airfare as-
sociated with nine different personal trips between Washington, D.C., and
Maine. Pursuant to the plea agreement, Buccello resigned from the NPS
and reimbursed the government a total of $10,865 for the costs associated
with personal travel that she fraudulently charged. On January 23, 2008,
Buccello was sentenced to 2 years of probation and fined $10,000 and 50
hours of community service.


CEO Sentenced for Theft of Federal Funds
     In 1994, Gregory Thomlison, former chairman and chief executive
officer of Destinet Corporation (Destinet), a former NPS contractor,
purchased Mistix, a reservations and ticketing management company that
collected fees for camp grounds, sports venues, and other entertainment
enterprises. NPS and the California State Parks and Recreation Depart-
ment were among Mistix’s largest clients.

     As Destinet assumed ownership of Mistix’s contracts, it was required
to collect reservations and tour fees from NPS patrons and then deposit
that agency’s share of the proceeds into the U.S. Treasury. In early 1997,
however, Destinet stopped paying returns on its state and federal con-
tracts but continued to collect monies on their behalf. In 1997, Destinet
declared bankruptcy, and Thomlison fled to Ontario, Canada.

     As the result of the OIG investigation, in May 2002, the Federal
Grand Jury for the Southern District of California indicted Thomlison on
22 counts of theft of public funds, 22 counts of wire fraud, 22 counts of
foreign transfer of money taken from fraud, and 1 count of illegal trans-
fer of bankruptcy assets. The U.S. District Court issued a warrant for


                                                                                   25
                                                                     Back to Toc
     Thomlison’s arrest. From October 1997 through July 2007, the DOJ pursued
     Thomlison’s extradition from Canada.

         Finally, in July 2007, after exhausting his appeals in the Canadian judicial
     system, Thomlison voluntarily returned to the United States and surrendered to
     federal authorities. On August 13, 2007, he appeared in the U.S. District Court,
     Southern District of California, where he pleaded guilty to 1 count of theft of
     government funds.

         Thomlison was sentenced in U.S. District Court, Southern District of Cali-
     fornia, in connection with his guilty plea. He was sentenced to 12 months and
     1 day of imprisonment, 36 months of probation, and $1,623,620 in restitution to
     be paid to NPS and other respective victims.


     Pearl Harbor Museum Worker Sentenced
         Fe Nakahara, an employee of the Arizona Memorial Museum Association
     (AMMA) at Pearl Harbor, HI, pleaded guilty in U.S. District Court, District of
     Hawaii, in October 2007 to the theft of approximately $170,000 from AMAA
     receipts. On February 14, 2008, she was sentenced to 2 concurrent 18-month
     prison terms and 3 years of probation. In addition to the jail time, Nakahara
     was ordered to pay $221,111 in restitution. Her 3 years of probation was condi-
     tioned on her actual payment of restitution.

          Nakahara, a grandmother, admitted stealing the funds in 2005 over a period
     of a few months. She removed them from an area of AMMA under her control.
     Nakahara told NPS and OIG investigators that she spent part of the money on
     gifts for her family and her boyfriend. However, she provided no convincing
     explanation for her disposition of the majority of the stolen funds, alleging that
     she had discarded the funds in a dumpster.

          AMMA is a nonprofit organization authorized by the Congress. It supports
     the interpretation and related visitor service activities of NPS at the U.S.S. Ari-
     zona Memorial, the War in the Pacific National Historical Park, the American
     Memorial Park, and the Kalaupapa National Historic Park.


     U.S. Park Police Struggles With Dual Mission
         As part of a continuing commitment by the OIG to examine DOI law
     enforcement programs and homeland security efforts, we conducted an assess-
     ment of the U.S. Park Police (USPP). Our review found that USPP continues to
     struggle with the competing missions of protecting national icons and




26
monuments and functioning as an urban police department at the same time and
with the same resources.

     USPP has failed to establish a comprehensive security program for the
protection of national icons and monuments. Lacking centralized command
level oversight of icon protection, USPP has not developed comprehensive asset
security plans or a formal training program for those responsible for protecting
the icons. Despite increased responsibilities involving the protection of national
icons and monuments, USPP staffing levels are lower now than they were 6
years ago. USPP has been unable to properly staff security posts, and the lack
of a sufficient number of officers has led to concerns for officer safety.

     In addition to lack of staffing, we found officer safety concerns regarding
firearms, ballistic vests, and patrol vehicles. Many USPP officers have not met
minimum firearm qualification standards with their duty weapons. We found
that USPP had not taken immediate action to replace ballistic vests containing
Zylon, a material determined to be noncompliant with federal standards. In
addition, USPP officers in Washington, D.C., do not have enough vehicles for
them to properly patrol and respond to calls for service.

    Finally, our assessment found weaknesses in management and oversight
by senior agency officials. In the area of financial management, we found that
USPP failed to put the proper infrastructure in place to successfully manage its
financial affairs. Overall we found an environment of distrust and low morale
where employees question the ability of senior management to lead USPP. Both
DOI and NPS are currently formulating plans to address the issues identified
during our assessment.

                                                                    One of four paintings by William
                                                                    Traher from his Faces of the West
                                                                    series, commissioned by the
                                                                    National Park Service in the 1960s.




                                                                                                          27
                                     U.S. Geological Survey




     Part of a larger mural by
     Gifford Beal, recognizing
     the global activities of DOI.


28
Leave Fraud Leads To Termination  
     Robert Thom, a USGS information technology specialist in San Di-
ego, CA, was arrested on August 23, 2007, and indicted on September 6,
2007, by a Federal Grand Jury in the U.S. District Court for the Eastern
District of California on 10 counts of wire fraud. Thom submitted false
and forged documents to the USGS, claiming that he suffered from a
malignant brain tumor. He played on coworkers’ sympathy and faked a
painful brain tumor in order to apply for and receive 995 hours of annual
leave from the Federal Voluntary Leave Transfer Program, a leave bank
that is intended to help employees who are genuinely ill and who have
run out of their own allotted leave.

     Misled by Thom’s false medical documents, the USGS placed Thom
on its national donation list from December 14, 2006, through August
23, 2007. This enabled Thom to receive annual leave donations from
all USGS employees. Thirty USGS employees, including 10 outside
of California, donated their annual leave, worth $40,550, so that Thom
could continue to receive his federal salary and benefits.

    Shortly after Thom’s alleged brain tumor operation, office co-work-
ers visited him at home to wish him a speedy recovery. To their amaze-
ment, they found him outside washing his car and demonstrating no
visible signs of a recent brain operation. OIG investigators subsequently
were called, and they conducted undercover activities. They served a
search warrant at Thom’s residence to uncover his fraudulent scheme.

    On September 17, 2007, USGS terminated Thom’s employment after
the OIG uncovered his scheme.

     On December 6, 2007, Thom appeared in the U.S. District Court,
Eastern California, where he pled guilty to 10 counts of wire fraud, in
violation of 18 U.S.C. 1343. Thom was scheduled to be sentenced on
March 7, 2008, but failed to appear. Honorable Judge Garcia issued a
bench warrant for Thom’s arrest and on March 13, 2008, Thom was
apprehended once again in San Diego, CA, on a no bail bond.




                                                                                 29
                                                                   Back to Toc
                                  Appendices




     This 1939 mural by 	
     Nicolai Cikovsky is one of
     four depicting the impact
     of harnessing water.
30
                                                                                                                                     Appendix One




STATISTICAL HIGHLIGHTS
Investigative Activities
Cases Closed............................................................................................................................. 211
Cases Opened............................................................................................................................177
Hotline Complaints/Inquiries Received......................................................................................80

Criminal Prosecution Activities
Indictments/Informations............................................................................................................16
Convictions....................................................................................................................................28
Sentencings..................................................................................................................................38
     - Jail........................................................................................................................ 645 months
     - Fines.................................................................................................................... $9,046,000
     - Criminal Restitutions.......................................................................................... $2,445,585
     - Probations ........................................................................................................ 1542 months
     - Community Service.............................................................................................. 1550 hours
     - Special Assessments.................................................................................................. $6,930
Criminal Matters Referred for Prosecution.................................................................................36

Civil Investigative Activities
Civil Referrals.................................................................................................................................9
Civil Judgements/Settlements.......................................................................................$300,000

Administrative Investigative Activities
Removals........................................................................................................................................3
Resignations/Retirements............................................................................................................2
Suspensions.................................................................................................................. 5 (91 days)
Reprimands/Counseling..............................................................................................................12
Reassignments/Transfers.............................................................................................................2
General Policy Actions.................................................................................................................13
Administrative Recoveries................................................................................................ $15,396
Bureau Non-Responsive*..............................................................................................................4




* Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative
action.
                                                                                                                                                    31
                                                                                                                   Back to Toc
     Appendix One




       STATISTICAL HIGHLIGHTS
       Audit and Evaluation Related Activities
        Reports Issued........................................................................................................................50

        	    Performance Audits, Financial Audits, Evaluations, and Verifications..........................36
        	    Contracts and Grant Audits..............................................................................................12
        	    Single Audit Quality Control Reviews.................................................................................2


        Audit and Evaluation Impacts
        Total Monetary Impacts..................................................................................... $255,380,471
        	    Questioned Costs (includes unsupported costs)............................................$1,947,268
        	    Recommendations That Funds Be Put to Better Use.......................................... $33,203
        	    Lost or Potential Additional Revenues........................................................$252,700,000
        	    Wasted Funds*....................................................................................................$700,000

        Audit and Evaluation Recommendations Made................................................................. 370

        Audit and Evaluation Recommendations Resolved..............................................................70




       * Wasted Funds is a category used to classify funds that were wasted and cannot be recovered.




32
                    Appendix One




Portion of a mural titled Con-
servation of American Wildlife by
Henry Varnum Poor, depicting
various dedicated individuals
working for the benefit of wildlife.




                                       33
 Appendix Two




                Reports Issued During the
                Six-Month Reporting Period
                This listing includes all audit-related reports issued during the 6-month period that end-
                ed March 31, 2008. It provides report number, title, issue date, and monetary amounts
                identified in each report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Un-
                supported Cost, **** Lost or Potential Additional Revenues, and *****Wasted Funds).


                Audits, Evaluations, Assessments, and Verifications
                Bureau of Indian Affairs
                Y-RR-BIA-0003-2007	              Program Assessment Rating Tool (PART) —
                                                 Review of Bureau of Indian Affairs Irrigation
                                                 Program (11/19/2007)

                X-IN-BIA-0013-2007	              Independent Auditors’ Report on Indian Affairs
                                                 Financial Statements for Fiscal Years 2007 and 2006
                                                 (01/11/2008)

                X-IN-BIA-0008-2008	              Mangement Letter Concerning Issues Identified
                                                 During the Audit of the Indian Affairs Financial State-
                                                 ments for Fiscal Years 2007 and 2006 (02/21/2008)

                W-EV-BIA-0005-2008	              Letter to Senator Pete Domenici Regarding Allega-
                                                 tions that the Navajo Nation Misused Federal Funds in
                                                 Sending Representatives to a National Indian Educa-
                                                 tion Association Conference in Honolulu, Hawaii
                                                 (03/07/2008)

                Bureau of Land Management
                X-IN-BLM-0016-2007	              Independent Auditors’ Report on the Bureau of Land
                                                 Management Financial Statements for Fiscal Years
                                                 2007 and 2006 (01/04/2008)

                X-IN-BLM-0003-2008	              Management Letter Concerning Issues Identified
                                                 During the Audit of the Bureau of Land Management
                                                 Financial Statements for Fiscal Years 2007 and 2006
                                                 (02/14/2008)




34
                                                                             Appendix Two




Y-RR-BLM-0005-2007	     Program Assessment Rating Tool (PART):
                        Progress Evaluation of the Bureau of Land
                        Management, Land Use Planning Program
                        (02/25/2008)
           .
Bureau of Reclamation
X-IN-BOR-0017-2007	     Independent Auditors’ Report on the Bureau of
                        Reclamation Financial Statements for Fiscal Years
                        2007 and 2006 (01/16/2008)

X-IN-BOR-0002-2008	     Management Letter Concerning Issues Identified
                        During the Audit of the U.S. Bureau of Reclama-
                        tion Financial Statements for Fiscal Years 2007
                        and 2006 (02/05/2008)

Departmental Offices
X-IN-OSS-0014-2007	     Independent Auditors’ Report on the Departmental
                        Offices Financial Statements for Fiscal Years 2007
                        and 2006 (01/28/2008)

Federated States of Micronesia
P-EV-FSM-0001-2007	     Kosrae State, Federated States of Micronesia:
                        Property Accountability Process Needs To Be
                        Improved (10/17/2007)

P-EV-FSM-0001-2006	     Pohnpei State, Federated States of Micronesia:
                        Property Accountability Process Needs To Be
                        Established (10/17/2007)

Multi-Office Audits
X-ST-MOI-0021-2007	     Inspector General’s Statement Summarizing
                        the Major Management and Performance Chal-
                        lenges Facing the Department of the Interior
                        (10/03/2007)

X-IN-MOA-0012-2007	     Independent Auditors’ Report on the Department
                        of the Interior Financial Statements for Fiscal
                        Years 2007 and 	2006 (11/13/2007)




                                                                                        35
 Appendix Two




                X-IN-MOA-0001-2008	     Independent Auditors’ Report on the Department of
                                        the Interior Special-Purpose Financial Statements
                                        for Fiscal Years 2007 and 2006 (11/16/2007)
                       .
                W-EV-MOI-0001-2008	     Congressional Request from the Honorable George
                                        Miller Chairman, Committee on Education and
                                        Labor and the Honorable Nick J. Rahall II, Chair-
                                        man, Committee on Natural Resources, House of
                                        Representatives, Concerning the Safety of Chil-
                                        dren Attending Residential Treatment Programs
                                        that Operate on Department of Interior’s Lands
                                        (01/18/2008)

                W-EV-MOA-0001-2007	     Sole Source Contracting: Culture of Expediency
                                        Curtails Competition in Department of the Interior
                                        Contracting (02/08/2008)

                X-IN-MOA-0006-2008	     Management Letter Concerning Issues Identified
                                        During the Audit of the Department of the Interior
                                        Financial Statements for Fiscal Years 2007 and
                                        2006 (02/15/2008)

                Y-IN-MOA-0001-2007	     Audit of FY2006 and FY2007 Department of
                                        Defense Purchases Made Through the Department
                                        of the Interior (02/21/2008)

                W-EV-MOA-0004-2008	     Evaluation of the Department of the Interior’s
                                        Recruitment, Screening, Selection, and Training of
                                        Departmental Volunteers (03/07/2008)

                Y-EV-MOA-0001-2008	     Controls Over the Transit Benefit Program at the
                                        Department of the Interior (03/18/2008)

                C-IN-MOA-0011-2006	     Health and Safety Concerns at the Department of
                                        the Interior’s Facilities (03/26//2008)

                National Park Service
                P-VS-NPS-0002-2007	     Verification Review of Recommendations From
                                        July 2004 Report on National Park Service Man-
                                        agement of Selected Grants in Hawaii (10/22/2007)

                B-EV-NPS-0002-2008	     District of Columbia Water and Sewer
                                        Authority, July 1, 2007, through September 30,
                                        2007 (12/10/2007)




36
                                                                               Appendix Two




X-IN-NPS-0019-2007	         Independent Auditors’ Report on the National
                            Park Service Financial Statements for Fiscal
                            Years 2007 and 2006 (12/21/2007)

X-IN-NPS-0009-2008 	        Management Letter Concerning Issues Identified
                            During the Audit of the National Park Service
                            Financial Statements for Fiscal Years 2007 and
                            2006 (02/01/2008)

Y-RR-NPS-0010-2007	         Program Assessment Rating Tool (PART):
                            Progress Evaluation of the National Park Service
                            (NPS) Land and Water Conservation Fund State
                            Grants Program (02/27/2008)

B-EV-NPS-0005-2008	         District of Columbia Water and Sewer
                            Authority – October 1, 2007 through
                            December 31, 2007 (03/06/2008)

Office of Insular Affairs
W-VS-OIA-0007-2007	         Verification Review of Five Recommendations
                            From January 2003 Audit Report Compli-
                            ance With the Memorandum of Understanding
                            Between the Governor of the Virgin Islands and
                            the Secretary of the Interior (No. 2003-I-0003)
                            (10/18/2007)

V-IN-VIS-0011-2006	         Collection of Outstanding Taxes and Fees,
                            Government of the Virgin Islands (01/10/2008)
                            ****$252,700,000 *****$700,000

Office of the Special Trustee for Indian Affairs
Q-IN-OST-0003-2007	         Independent Auditors’ Report on the Tribal and
                            Other Trust Funds and Individual Indian
                            Monies Trust Funds Financial Statements for
                            Fiscal Years 2007 and 2006 (11/09/2007)

Q-IN-OST-0001-2008	         Management Letter Concerning Issues Identi-
                            fied During the Audit of the Office of the Spe-
                            cial Trustee for American Indians Financial
                            Statements for Fiscal Years 2007 and 2006
                            (12/05/2007)




                                                                                          37
     Appendix Two




                U.S. Fish and Wildlife Service
                X-IN-FWS-0018-2007	      Independent Auditors’ Report on the U.S. Fish and
                                         Wildlife Service Financial Statements for Fiscal
                                         Years 2007 and 2006 (01/18/2008)

                X-IN-FWS-0005-2008	      Management Letter Concerning Issues Identified
                                         During the Audit of the U.S. Fish and Wildlife
                                         Service Financial Statements for Fiscal Years 2007
                                         and 2006 (01/28/2008)

                B-EV-FWS-0004-2008	      Management Advisory, Clarification Needed on
                                         License Certification Requirements for State Hunt-
                                         ing and Fishing Licenses (02/19/2008)

                U.S. Geological Survey
                X-IN-GSV-0015-2007	      Independent Auditors’ Report on the U.S. Geologi-
                                         cal Survey Financial Statements for Fiscal Years
                                         2007 and 2006 (12/14/2007)

                X-IN-GSV-0004-2008	      Management Letter Concerning Issues Identified
                                         During the Audit of the U.S. Geological Survey Fi-
                                         nancial Statements for Fiscal Years 2007 and 2006
                                         (01/31/2008)


                Contract and Grant Audits
                Bureau of Reclamation
                K-CX-BOR-0001-2006	      Audit of Proposed Settlement Costs Claimed by
                                         McDaniel Fire Systems, Under the Bureau of
                                         Reclamation Contract to Replace Fire Extinguisher
                                         Systems in Powerplants Throughout Wyoming
                                         (No. 03CC602130) (11/15/2007) **$74,657
                                         ***$117,904

                National Park Service
                W-CX-NPS-0009-2007	      Pre-award Review of Pricing Proposal for Electric
                                         Utility Service Rates for Yellowstone National
                                         Park Submitted by Northwestern Energy LLC
                                         (11/09/2007)




38
                                                                          Appendix Two




W-CX-NPS-0010-2007	      Pre-award Audit of Overhead Rate for Jones
                         & Jones Architects and Landscape Architects,
                         LTD, under National Park Service Solicitation
                         for an Architect-Engineering Contract (No.
                         N8078070175) (11/15/2007) *$7,475

Q-CX-NPS-0004-2007	      Administration of the Contract to Build a
                         Breakwater Dock and Log Boom Fairway at
                         Bighorn Canyon National Recreation Area
                         (01/25/2008)

U.S. Fish and Wildlife Service
R-GR-FWS-0005-2007	      U.S. Fish and Wildlife Service Federal As-
                         sistance Program Grants Awarded to the State
                         of Connecticut, Department of Environmen-
                         tal Protection, Bureau of Natural Resources,
                         from July 1, 2004, through June 30, 2006
                         (10/16/2007) *$25,728 **$19,373

R-GR-FWS-0006-2007 	     U.S. Fish and Wildlife Service Federal Assis-
                         tance Program Grants Awarded to the Virgin
                         Islands, Department of Planning and Natural
                         Resources, Division of Fish and Wildlife, From
                         October 1, 2003, Through September 30,2005
                         (10/18/2007) **$60,000

R-GR-FWS-0010-2007	      U.S. Fish and Wildlife Service Federal As-
                         sistance Program Grants Awarded to the State
                         of New Jersey, Department of Environmen-
                         tal Protection, Division of Fish and Wildlife,
                         From July 1, 2004, Through June 30, 2006
                         (12/05/2007)

R-GR-FWS-0016-2005	      U.S. Fish and Wildlife Service Federal As-
                         sistance Program Grants Awarded to the State
                         of Maine, Department of Inland Fisheries and
                         Wildlife, From July 1, 2003, Through June 30,
                         2005 (12/11/2007)

R-GR-FWS-0012-2007	      U.S. Fish and Wildlife Service Federal As-
                         sistance Program Grants Awarded to the State
                         of Iowa, Department of Natural Resources,
                         From July 1, 2004, Through June 30, 2006
                         (01/25/2008) **$293,377




                                                                                     39
 Appendix Two




                R-GR-FWS-0009-2007	   U.S. Fish and Wildlife Service Federal Assis-
                                      tance Program Grants Awarded to the Govern-
                                      ment of Guam, Department of Agriculture, From
                                      October 1, 2004, Through September 30, 2006
                                      (02/14/2008) **$1,273

                R-GR-FWS-0011-2007	   U.S. Fish and Wildlife Service Federal Assistance
                                      Program Grants Awarded to the State of California,
                                      Department of Fish and Game, From July 1, 2004,
                                      Through June 30, 2006 (03/14/2008) **$1,381,957

                R-GR-FWS-0016-2007	   U.S. Fish and Wildlife Service Federal Assistance
                                      Program Grants Awarded to the State of New
                                      Hampshire Fish and Game Department from July
                                      1, 2004, Through June 30, 2006 (03/20/2008)


                Single Audit Quality Control Reviews
                B-QC-MOA-0003-2008	   KPMG Audit of Navajo Nation for the Year Ended
                                      September 30, 2006 (01/10/2008)

                B-QC-MOA-0006-2008	   William R. Hoffmann Ltd. Audits of Capital Con-
                                      certs for the Years Ended December 31, 2005, and
                                      2006 (03/27/2008)




40
                    Appendix Two




One of four paintings by William
Traher from his Faces of the West
series, commissioned by NPS in
the 1960s.




                                    41
 Appendix Three




     Monetary Impact of Audit and Evaluation
     Activities During the Reporting Period

     Activity	 	 Questioned Costs*	 Funds To Be Put 	             Potential	    Wasted 	           Total
     			                             To Better Use	              Additional	    Funds
     				                                                         Revenue
     Bureau of
     Reclamation	          $192,561	                    0	           0	            0 	         $192,561

     Insular
     Affairs		                  0	                      0	     $252,700,000	   $700,000	   $253,400,000


     National
     Park
     Service	                   0	                   $7,475	         0	           0	             $7,475

     U.S. Fish
     and Willife
     Service	             $1,755,980	               $25,728	         0	           0	         $1,781,708


     Total	                $1,948,541	              $33,203	   $252,700,000	   $700,000	   $255,381,744




      *Unsupported costs are included in questioned costs.




42
                                                                        Appendix Four




Non-Federal Funding Included in
Monetary Impact of Audit Activities
During the Reporting Period
V-IN-VIS-0011-2006	   Collection of Outstanding Taxes and Fees,
                      Government of the Virgin Islands, dated January
                      10, 2008. The report identified $253,400,000
                      as monetary impact, consisting of $252,700,000
                      potential additional revenues and $700,000
                      wasted funds. All of the funds were Insular
                      funds.




                                                                                        43
 Appendix Five




     Monetary Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     	     	                               Number of Reports	   Questioned Costs	   Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                35	           $16,274,920	          $6,635,834

     B.	 Which were issued during the
     	 reporting period.	                           6	            $1,948,541	            $117,908

     		        Total (A+B)	                        41	           $18,223,461	          $6,753,738

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                    2	              $675,032	            $117,904

     		        (i) Dollar value of
     		        recommendations that
     		        were agreed to by
     		        management. 	                        1	              $619,258	             $62,163

     		        (ii) Dollar value of
     		        recommendations that
     		        were not agreed to by
     		        management. 	                        1	               $55,774	             $55,774

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	              39	           $17,548,429	          $6,635,834

     E. 	 For which no management
     	 decision was made within
     	 6 months of issuance. 	                     35	           $15.793,722	          $6,635,834




44
                                                                                          Appendix Five




Monetary Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use
	     	                                                Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.*	                                                   17	       $28,250,456

B.	 Which were issued during the
	 reporting period. 	                                              2	           $33,203

		        Total (A+B)	                                            19	       $28,283,659

C.	 For which a management decision
	 was made during the reporting period. 	                          2	         $102,268

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	                            2	         $102,268

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	                        0	                 0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                             17	       $28,181,391

E.	 For which no management decision
	 was made within 6 months of issuance. 	                         16	       $28,155,663




*Beginning balance differs from the October 2007 Semiannual Report
ending balance by $38,577 (increase) because of corrective adjustments.




                                                                                                      45
 Appendix Five




     Monetary Resolution Activities
     Table III: Inspector General Reports
     With Lost or Potential Additional Revenues

     	     	                                     Number of Reports	    Dollar Value


     A.	   For which no management
     	     decision had been made by
     	     the commencement of the
     	     reporting period.	                             3	          $40,325,640

     B.	 Which were issued during the
     	 reporting period. 	                                0	                    0

     		        Total (A+B)	                               3	          $40,325,640

     C.	 For which a management decision
     	 was made during the reporting period. 	            0	                    0

     	 (i)	 Dollar value of recommendations
     		 that were agreed to by management. 	              0	                    0

     	 (ii)	 Dollar value of recommendations
     		 that were not agreed to by management. 	          0	                    0

     D.	 For which no management decision
     	 had been made by the end of the
     	 reporting period. 	                                3	           $40,325,64

     E.	 For which no management decision
     	 was made within 6 months of issuance. 	            3	           $40,325,64




46
                                                                                 Appendix Five




Monetary Resolution Activities
Table IV: Inspector General Reports
With Wasted Funds

	     	                                     Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by
	     the commencement of the
	     reporting period.	                             2	          $28,856,706

B.	 Which were issued during the
	 reporting period. 	                                0	                    0

		        Total (A+B)	                               2	          $28,856,706

C.	 For which a management decision
	 was made during the reporting period. 	            0	                    0

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              0	                    0

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          0	                    0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                2	          $28,856,706

E.	 For which no management decision
	 was made within 6 months of issuance. 	            2	          $28,856,706




                                                                                             47
 Appendix Six




                Summary of Reports Over 6 Months
                Old Pending Management Decisions
                This listing includes a summary of audit and evaluation reports that were more than 6
                months old on March 31, 2008, and still pending a management decision. It provides
                report number, title, issue date, number of unresolved recommendations, and
                unresolved amount of monetary benefits identified in the report.


                Audits, Evaluations, Assessments, and Verifications
                Bureau of Indian Affairs
                W-FL-BIA-0047-2002	             School Construction Program, Bureau of Indian
                                                Affairs (02/24/2004);
                                                1 Recommendation; $2,100,000 Unresolved

                C-IN-BIA-0015-2004	             Bureau of Indian Affairs Use of Facilities Improve-
                                                ment and Repair Funds (08/29/2005);
                                                1 Recommendation; $10,200,000 Unresolved

                Multi-Office Audits
                X-IN-MOA-0018-2005	             Fiscal Year 2005 Department of the Interior
                                                Purchases Made on Behalf of the Department of
                                                Defense (01/09/2007); 3 Recommendations

                W-IN-MOA-0086-2004	             Proper Use of Cooperative Agreements Could Improve
                                                Interior’s Initiatives for Collaborative Partnerships
                                                (01/31/2007); 5 Recommendations

                National Park Service
                X-IN-NPS-0017-2006	             Independent Auditors’ Report on the National Park
                                                Service’s Financial Statements for Fiscal Years 2006
                                                and 2005 (02/08/2007); 4 Recommendations

                Office of the Secretary
                X-IN-OSS-0016-2006	             Independent Auditors’ Report on the
                                                Departmental Offices’ Financial Statements for Fiscal
                                                Years 2006 and 2005 (02/05/2007);
                                                2 Recommendations




48
                                                                              Appendix Six




U.S. Fish and Wildlife Service
X-IN-FWS-0020-2006	      Independent Auditors’ Report on the U.S. Fish
                         and Wildlife Service’s Financial Statements for
                         Fiscal Years 2006 and 2005 (08/14/2007);
                         2 Recommendations


Contracts and Grants
National Park Service
2000-E-0607	             Costs Billed By Harrison & Palmer, Inc., From
                         April 1, 1996, Through June 23, 1999, Under
                         National Park Service Contract
                         No. 143CX300094906 (08/08/2000);
                         1 Recommendation; $52,703 Unresolved

2000-E-0706	             Audit of Costs Billed by Southern Insulation,
                         Inc., From November 21, 1994, Through
                         June 1, 1999, Under National Park Service
                         Contract No. 1443CX300094906 (09/29/2000);
                         1 Recommendation; $86,262 Unresolved

2001-E-0035	             Audit of Costs Billed by Callas Contractors, Inc.,
                         From January 1, 1997, Through June 1, 1999,
                         Under National Park Service Contract
                         No. 1443CX300094906 (11/07/2000);
                         1 Recommendation; $16,425 Unresolved

2001-E-0036	             Audit of Costs Billed by Capitol Mechani-
                         cal Contractors, Inc., From January 1, 1997,
                         Through June 1, 1999, Under National Park
                         Service Contract No. 1443CX300094906
                         (11/07/2000); 1 Recommendation;
                         $98,194 Unresolved

2001-E-0244	             Audit of Costs Billed by E.M.S. Consultants,
                         Inc., From May 1, 1996, Through June 1,
                         1999, Under National Park Service Contract
                         No.1443CX300094906 (02/27/2001);
                         1 Recommendation; $327,330 Unresolved




                                                                                         49
 Appendix Six




                2001-E-0336	             Audit of Costs Billed By JCM Control Systems,
                                         Inc., From January 1, 1994, Through July 16,
                                         1999, Under National Park Service Contract
                                         No. 1443CX300094906 (04/23/2001);
                                         1 Recommendation; $109,865 Unresolved

                Q-CX-NPS-0004-2006	      Audit of Costs Claimed by TDT Construction LLC
                                         under National Park Service Contract
                                         No. 1443C7140040001 (07/26/2007);
                                         1 Recommendation; $159,692 Unresolved

                K-CX-OIG-0010-2005	      Costs Claimed by Sharks and Sharks General
                                         Contractors, Inc., Under National Park Service
                                         Contract No. C6068030005 for Construction Work
                                         at the Ulysses S. Grant National Historic Site
                                         (08/22/2007); 1 Recommendation;
                                         $731,103 Unresolved

                U.S. Fish and Wildlife Service
                R-GR-FWS-0029-2003	      U.S. Fish and Wildlife Service Federal Assistance
                                         Grants Administered by the State of Washington,
                                         Department of Fish and Wildlife, From
                                         July 1, 2000, Through June 30, 2002
                                         (03/21/2004);1 Recommendation

                R-GR-FWS-0025-2003	      U.S. Fish and Wildlife Service Federal Assistance
                                         Grants Administered by the State of New York,
                                         Department of Environmental Conservation,
                                         Division of Fish, Wildlife, and Marine Resources,
                                         From April 1, 2000, Through March 31, 2002
                                         (05/06/2004); 1 Recommendation

                R-GR-FWS-0014-2004	      U.S. Fish and Wildlife Service Federal Assistance
                                         Grants Administered by the Commonwealth of
                                         Puerto Rico, Department of Natural and Environ-
                                         mental Resources, From July 1, 2001, Through
                                         June 30, 2003 (09/19/2005);
                                         9 Recommendations; $38,577 Unresolved




50
                                                                             Appendix Six




R-GR-FWS-0008-2004	   U.S. Fish and Wildlife Service Federal Assis-
                      tance Grants Administered by the State of Idaho,
                      Department of Fish and Game, From
                      July 1, 2001, Through June 30, 2003
                      (09/30/2005); 15 Recommendations;
                      $519,469 Unresolved

R-GR-FWS-0004-2005	   U.S. Fish and Wildlife Service Federal As-
                      sistance Grants Administered by the State of
                      Illinois, Department of Natural Resources,
                      From July 1, 2002, Through June 30, 2004
                      (03/31/2006); 12 Recommendations;
                      $553,977 Unresolved

R-GR-FWS-0018-2005	   U.S. Fish and Wildlife Service Federal
                      Assistance Grants Awarded to the State of
                      Minnesota, Department of Natural Resources,
                      Division of Fish and Wildlife, From
                      July 1, 2002, Through June 30, 2004
                      (02/01/2007); 3 Recommendations;
                      $505,600 Unresolved

R-GR-FWS-0003-2007	   U.S. Fish and Wildlife Service Federal
                      Assistance Program Grants Awarded to the
                      Nebraska Game and Parks Commission,
                      From July 1, 2004, Through June 30, 2006
                      (09/19/2007); 3 Recommendations


                                                        One of four paintings by William
                                                        Traher from his Faces of the West
                                                        series, commissioned by NPS in
                                                        the 1960s.




                                                                                            51
 Appendix Seven




                  Summary of Reports Over 6 Months
                  Old Pending Corrective Action
                  This is a listing of audit and evaluation reports more than 6 months old with
                  management decisions for which corrective action has not been completed. It
                  provides report number, title, issue date, and the number of recommendations
                  without final corrective action. These audits and evaluations continue to be
                  monitored by the Focus Leader for Management Control and Audit Follow-up,
                  Assistant Secretary, Policy, Management, and Budget, for completion of
                  corrective action.

                  Bureau of Indian Affairs
                  2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process
                                               to Approve Tribal Gaming Revenue Allocation Plans
                                               (06/11/2003); 3 Recommendations

                  X-IN-BIA-0007-2003	          Bureau of Indian Affairs, Office of Indian
                                               Education Programs, Central Office Management of
                                               Administrative Funds (03/30/2004);
                                               1 Recommendation

                  X-IN-BIA-0006-2005	          Independent Auditors’ Report on the Bureau of
                                               Indian Affairs’ Financial Statements for Fiscal Years
                                               2005 and 2004 (12/20/2005)
                                               1 Recommendation

                  C-IN-BIA-0017-2005	          Bureau of Indian Affairs, Radio Communications
                                               Program (01/31/2007) 6 Recommendations

                  X-IN-BIA-0003-2007	          Management Letter Concerning Issues Identified
                                               During the Audit of the Bureau of Indian Affairs’
                                               Financial Statements for Fiscal Years 2006 and 2005
                                               (05/03/2007); 7 Recommendations

                  Bureau of Land Management
                  C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill
                                               Property Bureau of Land Management (03/15/2005);
                                               1 Recommendation




52
                                                                         Appendix Seven




Bureau of Reclamation
1999-I-0133	            Audit Report on the Identification of Unneeded
                        Acquired Lands (12/21/1998);
                        1 Recommendation

2000-I-377 	            Native American Graves Protection and
                        Repatriation Activities, Bureau of Land
                        Management (05/05/2000); 1 Recommendation

W-FL-BLM-0007-2004	     Proposed Changes to Management of
                        SNPLMA Costs May Improve Fund Account-
                        ability (04/05/2007); 3 Recommendations

C-IN-BLM-0012-2007 	    Flash Report: Environmental, Health, and
                        Safety Issues at Bureau of Land Management
                        Ridgecrest Field Office Rand Mining District,
                        CA (09/12/2007); 6 Recommendations

Minerals Management Service
X-IN-MMS-0010-2005	     Independent Auditors’ Report on the Minerals
                        Management Service’s Financial Statements for
                        Fiscal Years 2005 and 2004 (12/08/2005);
                        1 Recommendation

C-IN-MMS-0006-2006 	    Minerals Management Service’s
                        Compliance Review Process (12/05/2006);
                        3 Recommendations

Multi-Office Audits
1996-I-1267 	           Inspection and Enforcement Program and
                        Selected Related Activities, Bureau of Land
                        Management (09/30/1996); 1 Recommendation

A-IN-MOA-0004-2004 	    Department of the Interior’s Use of Wireless
                        Technologies (12/06/2004); 1 Recommendation

C-IN-MOA-0049-2004 	    Department of the Interior Concessions
                        Management (06/13/2005); 2 Recommendations

W-IN-MOA-0002-2005 	    Hazardous Fuels Reduction Program,
                        Department of the Interior (04/17/2006);
                        1 Recommendation




                                                                                    53
 Appendix Seven




                  X-IN-MOA-0018-2005 	    Fiscal Year 2005 Department of the Interior
                                          Purchases Made on Behalf of the Department of
                                          Defense (01/09/2007); 7 Recommendations

                  W-IN-MOA-0008-2005 	    Private Uses of Public Lands, National Park
                                          Service and Bureau of Land Management
                                          (04/10/2007); 6 Recommendations

                  C-IN-MOA-0007-2005 	    Department of the Interior Radio Communications
                                          Program (01/30/2007); 7 Recommendations

                  C-IN-MOA-0002-2006	     Department of the Interior Internal Control
                                          Program (08/09/2007); 4 Recommendations

                  National Park Service
                  1998-I-0406 	           Follow-up of Recommendations Concerning
                                          Utility Rates Imposed by the National Park Service
                                          (04/15/1998); 5 Recommendations

                  2002-I-0045 	           Recreational Fee Demonstration Program:
                                          National Park Service and Bureau of Land
                                          Management (08/19/2002); 1 Recommendation

                  P-IN-NPS-0105-2003	     National Park Service’s Management of Selected
                                          Grants in Hawaii (07/30/2004);
                                          2 Recommendations

                  C-IN-NPS-0013-2004 	    National Park Service’s Recording of Facility
                                          Maintenance Expenditures (01/26/2005);
                                          2 Recommendations

                  X-IN-NPS-0009-2005	     Independent Auditors’ Report on the National Park
                                          Service’s Financial Statements for Fiscal Years
                                          2005 and 2004 (12/21/2005); 2 Recommendations

                  P-IN-NPS-0074-2004	     Hawaii Volcanoes National Park: Improved Opera-
                                          tions Should Enhance Stewardship and Visitor
                                          Experience (03/31/2006); 6 Recommendations

                  X-IN-NPS-0017-2006	     Independent Auditors’ Report on the National Park
                                          Service Financial Statements for Fiscal Years 2006
                                          and 2005 (02/08/2007); 4 Recommendations

                  X-IN-NPS-0005-2007 	    Management Letter Concerning Issues
                                          Identified During the Audit of the National




54
                                                                            Appendix Seven




                          Park Service’s Financial Statements for Fiscal
                          Years 2006 and 2005 (03/01/2007);
                          6 Recommendations

C-IN-NPS-0007-2007 	      Flash Report: National Park Service,
                          Hazardous Condition of Yosemite’s Wawona
                          Tunnel Endangers Lives (06/20/2007);
                          3 Recommendations

Office of the Special Trustee for Indian Affairs
Q-IN-OST-0002-2005 	      Independent Auditors’ Report on the Tribal and
                          Other Trust Funds and Individual Indian
                          Monies Trust Funds’ Financial Statements for
                          Fiscal Years 2005 and 2004, Managed by the
                          Office of the Special Trustee for American
                          Indians (11/22/2005); 2 Recommendations

U.S. Fish and Wildlife Service
1997-I-1305 	             Audit Report on the Automated Law Enforce-
                          ment System, U.S. Fish and Wildlife Service
                          (09/30/1997); 1 Recommendation

X-IN-FWS-0003-2006 	      Management Letter Concerning Issues Iden-
                          tified During the Audit of the U.S. Fish and
                          Wildlife Service’s Financial Statements for
                          Fiscal Years 2005 and 2004 (02/27/2006);
                          2 Recommendations

C-IN-FWS-0009-2007 	      Flash Report: Fish and Wildlife Service, Jack-
                          son National Fish Hatchery In Need of Immedi-
                          ate Action (05/08/2007); 2 Recommendations

X-IN-FWS-0020-2006 	      Independent Auditors’ Report on the U.S. Fish
                          and Wildlife Service’s Financial Statements for
                          Fiscal Years 2006 and 2005 (08/14/2007);
                          3 Recommendations

X-IN-FWS-0009-2007 	      Management Letter Concerning Issues
                          Identified During the Audit of the Fish and
                          Wildlife Service’s Financial Statements for
                          Fiscal Years 2006 and 2005 (08/14/2007);
                          3 Recommendations




                                                                                       55
 Appendix Eight




                  Summary of Insular Area Reports
                  With Open Recommendations More
                  Than 6 Months Old
                  These Insular Area reports contain recommendations made specifically to Insular
                  Area governors and other Insular Area officials, who do not report to the Secre-
                  tary of the Interior and who are not subject to the policy, guidance, and adminis-
                  trative oversight established by the Assistant Secretary, Policy, Management, and
                  Budget.

                  Audits, Evaluations, Assessments, and Verifications
                  Northern Mariana Islands
                  P-GR-NMI-0003-2005	           Evaluation of Saipan Public Health Facility
                                                Project: Oversight of Capital Improvement
                                                Projects, Commonwealth of the Northern Mariana
                                                Islands (06/08/2007); 4 Recommendations

                  P-GR-NMI-0004-2005	           Evaluation of the Office of Insular Affairs’
                                                Oversight of Capital Improvement Projects, Common-
                                                wealth of the Northern Mariana Islands (06/08/2007);
                                                3 Recommendations; $1,240,144

                  U.S. Virgin Islands
                  V-IN-VIS-0004-2005	           Controls Over Video Lottery Terminal Operations, Gov-
                                                ernment of the Virgin Islands (06/08/2007);
                                                2 Recommendations




56
                    Appendix Eight




Section of buffalo bas relief, DOI,
carved in 1939 by Boris Gilbert-
son, who was active as a sculpture
of animals from the 1930s through
the 1950s.




                                      57
General Information



      Cross-References to the Inspector General Act
                                                                                                        Page
      Section 4(a)(2)           Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)           Significant Problems, Abuses, and Deficiencies                           1-29

      Section 5(a)(2)           Recommendations for Corrective Action With Respect to Significant        1-29
                                Problems, Abuses, and Deficiencies

      Section 5(a)(3)           Significant Recommendations From Agency’s Previous Reports on           52-55
                                Which Corrective Action Has Not Been Completed

      Section 5(a)(4)           Matters Referred to Prosecutive Authorities and Resulting Convictions     31

      Section 5(a)(5)           Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)           Audit Reports Issued During the Reporting Period                        34-40

      Section 5(a)(7)           Summary of Significant Reports                                           1-29

      Section 5(a)(8)           Statistical Table: Questioned Costs                                       44

      Section 5(a)(9)           Statistical Table: Recommendations That Funds Be Put to Better Use        45

      Section 5(a)(10)          Summary of Audit Reports Issued Before the Commencement of the
                                Reporting Period for Which No Management Decision Has Been Made         48-51

      Section 5(a)(11)          Significant Revised Management Decisions Made During the
                                Reporting Period                                                         N/A

      Section 5(a)(12)          Significant Management Decisions With Which the Inspector General
                                Is in Disagreement                                                       N/A

      Section 5(a)(13)          Information Described Under Section 804(b) of the Federal Financial
                                                                                                         N/A
                                Management Improvement Act of 1996




      *N/A: Not applicable to this reporting period




58
                                                                    General Information




                                        Contact Us


                                           By Mail
                                  U.S. Department of the Interior
                                   Office of Inspector General
                                         1849 C St. NW
                                       Mail Stop 5341, MIB
                                     Washington, DC 20240




                                         By Internet
                                         www.doioig.gov



                                           By Phone
                                           202.208.4618


                                            By Fax
                                           202.208.6062




Portion of a mural by Daniel
Galvez, commissioned in 1999 to
mark the 150 anniversary of the
founding of DOI, and titled
Guardians of the Past.




                                                                                      59
